 OFFICE OF INSPECTOR GENERAL
   for the Millennium Challenge Corporation


AUDIT OF THE MILLENNIUM CHALLENGE
CORPORATION’S RETIREMENT, HEALTH
BENEFITS, AND LIFE INSURANCE
WITHHOLDINGS/CONTRIBUTIONS AND THE
SUPPLEMENTAL SEMIANNUAL
HEADCOUNT REPORT SUBMITTED TO THE
OFFICE OF PERSONNEL MANAGEMENT
FOR THE PERIOD ENDING FEBRUARY 19,
2005.

AUDIT REPORT NO. M-000-06-002-F
February 28, 2006



WASHINGTON, DC
Office of Inspector General
   for the
Millennium Challenge Corporation




                                                        February 28, 2006

MEMORANDUM

TO: 	                John J. Danilovich, Chief Executive Officer, Millennium Challenge Corporation

FROM: 	              John M. Phee, AIG/MCC /s/

SUBJECT:	            Agreed Upon Procedures for Retirement, Health Benefits, and Life Insurance
                     Withholdings/Contributions and the Supplemental Semiannual Headcount Report
                     submitted to the Office of Personnel Management (OPM) for the period ended
                     February 19, 2005. (Report No. M-000-06-002-F)

Enclosed is the final report on the subject audit. The Office of Inspector General (OIG) contracted
with the independent certified public accounting firm of Williams, Adley and Company, LLP (WA
& Co.) to perform Agreed Upon Procedures of the Millennium Challenge Corporation’s (MCC)
Retirement, Health Benefits, and Life Insurance Withholdings/Contributions and the Supplemental
Semiannual Headcount Report submitted by MCC to OPM for the period ended February 19, 2005.
The contract required that the audit be performed in accordance with generally accepted
government auditing standards and Office of Management and Budget OMB) Bulletin 01-02, Audit
Requirements for Federal Financial Statements as amended by M-04-22 on July 27, 2004.

In its report on the Agreed Upon Procedures of MCC’s Retirement, Health Benefits, and Life
Insurance Withholdings/Contributions and the Supplemental Semiannual Headcount Report
submitted to OPM by MCC for the period ended February 19, 2005, the WA & Co. auditors found
that the information appeared reasonable based on the sample selected and the Agreed Upon
Procedures performed.

The procedures that were conducted by the auditors are included as an attachment to this report.
Based upon the sample reviewed by the auditors and the Agreed Upon Procedures performed,
the Retirement, Health Benefits, and Life Insurance withholdings /contributions as well as
enrollment information submitted via the Semiannual Headcount Report appeared reasonable.
Therefore, the audit report contains no findings or recommendations.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
                                             - 2 -


In carrying out its oversight responsibilities, the OIG reviewed WA & Co.’s report and related
audit documentation. This review, as differentiated from an audit in accordance with U.S.
generally accepted government auditing standards, was not intended to enable the OIG to
express, and we do not express, opinions on MCC’s Retirement, Health Benefits, and Life
Insurance Withholdings/Contributions and the Supplemental Semiannual Headcount Report
submitted to OPM. WA & Co. is responsible for the attached auditors’ report, dated August 27,
2005, and the conclusions expressed in the report. However, our review disclosed no instances
where WA & Co. did not comply with the generally accepted government auditing standards.

In finalizing the report, we considered your comments on our discussion draft and included
those comments, in their entirety in Appendix I of this report. MCC officials expressed their
appreciation for the work performed which provided some assurance that the payroll personnel
data in its system was reasonably accurate.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of WA
& Co. during the audit.
                                                 - 3 -




Table of 

Contents     Independent Accountant’s Report....................................................4 


             Background ......................................................................................5 


             Objective ......................................................................................... 5 


             Scope................................................................................................5 


             Criteria .............................................................................................6 


             Methodology ....................................................................................6 


             Management Comments 

                And our Evaluation…………….…………………………….7 


             Appendix I - Management Comments…………………………….8 


             Appendix II – Agreed Upon Procedures..........................................9 

                                              - 4 -





                      INDEPENDENT ACCOUNTANT’S REPORT 

                ON THE APPLICATION OF AGREED-UPON PROCEDURES 



United States Agency for International Development
Office of Inspector General
Assistant Inspector General for the Millennium Challenge Corporation

We have performed the procedure described in the attachment, which were agreed to by the
Inspector General, Controller, and the Acting Vice President for Administration and Finance,
solely to assist with respect to the employee withholdings and employer contributions reported
on the Report of Withholdings and Contributions for Health Benefits, Life Insurance, and
Retirement for the payroll periods ended December 11, 2004, February 19, 2005 and April 16,
2005 and the Semi-Annual Headcount Report as of February 19, 2005. This engagement to
apply agreed-upon procedures was performed in accordance with the standards established by
the American Institute of Certified Public Accountants. The sufficiency of the procedures is
solely the responsibility of the Inspector General, Controller, and the Acting Vice President for
Administration and Finance. Consequently, we make no representation regarding the sufficiency
of the procedures described below either for the purpose for which this report has been requested
or for any other purpose.

The procedures are included as an attachment to this report. Based upon the sample selected for
the pay periods indicated above and the agreed upon procedures performed the Retirement,
Health Benefits, and Life Insurance withholdings and/contributions as well as enrollment
information submitted via the Semiannual Headcount Report appeared reasonable. Therefore, no
findings and recommendations are included herein.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for Health Benefits, Life
Insurance, and Retirement, and the Headcount Report of the Millennium Challenge Corporation.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the use of the Inspector General, Controller, and the Acting
Vice President for Administration and Finance and should not be used by those who have not
agreed to the procedures and taken responsibility for the sufficiency of the procedures for their
purposes.




August 27, 2005
Washington, DC
                                               - 5 -


Background
In March 2002 in Monterrey, Mexico, President Bush called for a “new compact for global
development,” which links greater contributions from developed nations to greater responsibility
from developing nations. The President proposed a concrete mechanism to implement this
compact—the Millennium Challenge Account (MCA)—through which development assistance
would be provided to those countries that rule justly, invest in their people, and encourage
economic freedom. On January 23, 2004, with the passage of Public Law 108-199 (The
Consolidated Appropriations Act of 2004) the Millennium Challenge Corporation (MCC) was
established. The Act provided $1 billion in initial funding for fiscal year 2004, and President
Bush has pledged to increase funding for the MCA to $5 billion a year in the future.

The MCC contracted with the Department of Interior, National Business Center (NBC) to
provide accounting and IT services including usage of its Oracle Federal Financials System
application. The Department of Interior also handles MCC’s Human Resources and Payroll
services to the Corporation.

The OIG reported in a management letter that accompanied the FY 2004 Financial Statements
that the MCC’s process for personnel and payroll was inefficient and provides opportunities for
errors. We noted during our testing of personnel documentation that NBC made errors in payroll
processing primarily because the appropriate forms on transferring employees were not provided.
These errors were corrected during the year but the process was not corrected to reduce future
errors. As a result of these concerns the MCC requested that we conduct a review of its
personnel documentation. After listening to the MCC official’s concerns we agreed that a
review that embodied the Agreed-Upon Procedures issued by the Office of Personnel
Management (OPM) for larger agencies would be appropriate.


Objective
The objective of this task is to assess the reasonableness of Retirement, Health Benefits, and Life
Insurance withholdings and/contributions as well as enrollment information submitted via the
Semiannual Headcount Report. The work was coordinated with USAID OIG auditors within the
Assistant Inspector General for the Millennium Challenge Corporation (AIG/MCC). Where it is
determined that the information is not reasonable, the deficiency and the control weakness(es)
that gave rise to the deficiency, as well as, the extent of the deficiency shall be reported.


Scope
In general, the scope of these Agreed-Upon Procedures (AUPs) relates to the submission to OPM
of withholdings/contributions for Retirement, Health Benefits, and Life Insurance related to the
use of the Retirement and Insurance Transfer System (RITS). RITS is the authorized method of
submission of withholding and contribution information to OPM. Agency payroll offices
(APOs) that are technically unable to transmit benefit information to OPM via RITS may
continue to submit withholdings and contributions via the hard copy SF 2812 (and SF 2812-A),
“Report of Withholdings and Contributions for Health Benefits, Life Insurance and Retirement
to OPM.” The AUPs to be applied to those APOs submitting withholdings and contributions to
OPM via the hard copy SF 2812 forms are similar to those for RITS.
                                              - 6 -





Criteria
Our examination was based on the requirements of Office of Personnel Management for Agency
Payroll Offices.    In addition, we relied upon the laws and regulations related to
withholdings/contributions for retirement, health benefits, and life insurance.


Methodology
We visited the headquarters office of MCC and the payroll offices of NBC between June 15 and
August 12, 2005 to gather information and conduct our examination or official personnel files,
RITS reports and the Semi-Annual Headcount report. During our site visits and testing
activities, we:

   •	 Tested MCC personnel based upon the sampling outlined in the agreed upon procedures,
      except in the instance of step 4 for which the population was smaller than the 10 indicate.
      All personnel fitting this category were tested;

   •	 Interviewed human resources and payroll personnel and reviewed policies and procedures
      to identify any material weaknesses and their causes; and

   •	 Reviewed official personnel files, performed recalculations, and verified withholdings
      and contributions with the general ledger and official OPM reports.

We conducted our work in accordance with GAGAS (2003 revision, issued by the U.S.
Government Accountability Office), executed tests, conducted interviews, made observations
and performed examinations in accordance with the AUPs outlined in Appendix II.
                                      -7-

_____________________________________________________________________

Management              We consider the management comments to be responsive to the
Comments and            recommendations made in this report. We have included these
Our Evaluation          comments in their entirety in Appendix I.
                                            -8-

                                                                                  APPENDIX I

            Millennium Challenge Corporation
            Reducing Poverty Through Growth




MEMORANDUM 	                                                                 September 22, 2005

TO: 	         Alvin Brown, Office of Inspector General
              United States Agency for International Development

FROM: 	       Douglas Fehrer, Director of Human Resources /s/
              Millennium Challenge Corporation

SUBJECT: 	 Management Response to Draft Independent Accountant’s Report on the
           Application of Agreed-Upon Procedures

The Millennium Challenge Corporation (MCC) is pleased to note that the subject audit report
found that the human resource functions reviewed for the random sample group are functioning
in accordance with Office of Personnel Management standards. We wish to recognize the Office
of Inspector General’s dedication and cooperation with MCC in identifying and working to
improve our overall internal control structures, including the human resource and payroll
functions. We greatly appreciate the counsel and support that your office has provided to us
during the past year.




                             [Tel] (202) 521-3600 | (202) 521-3700 [Fax] 

                                       875 Fifteenth Street, NW 

                                     Washington, DC 20005-2221 

                                            www.mcc.gov

                                                                                    APPENDIX II
                                                -9-




                                  AGREED UPON PROCEDURES


Gain an understanding of the APO’s procedures for reconciling payroll information to RITS
submissions. Obtain the APO’s most recent Semiannual Headcount Report submitted to OPM
and a summary of RITS submissions for the current fiscal year. Randomly select three RITS
submissions for the current fiscal year, one of which coincides with the most recent Semiannual
Headcount Report. Obtain payroll information for the periods covered by the RITS submissions
selected.

Note that, as used in these AUPs, the term payroll information refers to all payroll information,
whether it is a payroll register, payroll data file, or other payroll support data.

1. 	 Compare RITS submission data with payroll information by performing the following
     procedures:

     1.a. 	   Foot the payroll information. If the auditor chooses to use a subset of payroll
              information, the subset must be representative of all payroll information and be
              subject to the same control procedures over payroll information associated with
              the three RITS submissions selected.

     1.b. 	   Trace employee withholding information shown on the payroll information footed
              in step l.a. for Retirement, Health Benefits, and Life Insurance (as adjusted for
              reconciling items) to the related amounts shown on the RITS submission for the
              corresponding period.

     1.c. 	   Obtain support for differences between amounts shown on the source of payroll
              information (e.g., payroll register, payroll data, etc.) or derived from files footed in
              step l.a. and amounts shown on the RITS submission selected.

     1.d. 	   Trace reconciling items to supporting documentation and verify agreement.

     1.e. 	   Foot each RITS submission selected.

     Report any differences or exceptions that are unsupported or unsubstantiated, or represent
     an error.

2. 	 Review or perform a reconciliation of payroll information, including RITS data, to the
     agency’s general ledger. For the three pay periods selected, review the agency’s
     reconciliation of payroll transactions to its general ledger expense and cash disbursement
     accounts or, if such reconciliation does not exist, perform the reconciliation. Agencies
     should post Retirement, Health Benefits, and Life Insurance employer contributions to
                                              - 10 -


     Standard General Ledger (SGL) account 6400—Benefits Expense. Report when the APO
     did not prepare the reconciliation. Also report any unsupported or unsubstantiated
     differences (i.e., gross rather than net) in the total payroll paid for the selected pay period
     and the amount recorded in the general ledger that exceeds 5 percent of total payroll.
     Report any differences (i.e., gross rather than net) between the withholding and
     contributions reported on the RITS submissions and the amounts posted to the SGL
     accounts greater than 1 percent. Employee contributions should be reported to 6400N and
     employer contributions to 6400G. Report postings of employer contributions for
     Retirement, Health Benefits, and Life Insurance to any SGL account other than account
     6400G.

3. 	 Agree employee salary and contributions to the SF 50 (“Notification of Personnel Action”),
     authorized withholding/contributions, and benefit program elections. Randomly select a
     total of 25 individuals who were on the payroll system for all three of the RITS
     submissions selected for testing above. The 25 employees must be selected from a pool of
     employees who meet each of the following characteristics: covered by Civil Service
     Retirement System (CSRS) or the Federal Employees Retirement System (FERS); enrolled
     in the Federal Employees Health Benefits Program; covered by Basic Life Insurance; and
     covered by at least one FEGLI optional coverage (Option A, B, or C). Obtain the Official
     Personnel File (OPF) for each individual selected, and perform the following procedures:

     3.a. 	   Verify that the base salary used for payroll purposes and upon which withholdings
              and contributions generally are based agrees with the base salary reflected on the
              employees’ SF 50s.

     3.b. 	   For Retirement, verify that amounts withheld and contributed for participants in
              the CSRS and the FERS are correct, based upon the official withholdings and
              contribution rates required by law. [See Payroll Office Letters P-98-13 and
              P-99-27.]

     3.c. 	   For Health Benefits, verify that employee withholdings and agency contributions
              agree with the official subscription rates issued by OPM for the plan and option
              elected by the employees, as documented by a Health Benefits Registration Form
              (SF 2809) in the employees’ OPFs. [See Payroll Office Letters P-98-10 and P-99
              24 for FY 2000 rates.]

              If an employee elected his/her current health plan via Employee Express, there
              likely will not be documentation in the OPF. Employee Express is an automated
              system that allows employees to process health benefits enrollment changes,
              without having to submit a hard-copy enrollment form (SF 2809); further
              information may be obtained at www.EmployeeExpress.gov. In addition, some
              agency payroll systems also afford the ability to effect health benefits enrollment
              changes without use of SF 2809. The auditor must obtain documentation from
              Employee Express, which maintains a history of all FEHB transactions entered by
                                             - 11 -

              employees, or from the payroll systems that afford the capability of end-user
              update. Rather than requesting documentation directly from Employee Express,
              auditors should work through each agency’s personnel office. Employee Express
              key representatives have been apprised of this potential requirement.

     3.d. 	   For Life Insurance, verify that Basic Life Insurance was elected by the employees,
              as documented by a Life Insurance Election Form (SF 2817), in his/her OPF and
              that withholdings and contributions are correct.

              i    For employee withholdings: Round the employee’s annual base salary to the
                   nearest thousand dollars and add $2,000.
              ii   For agency contributions: Divide the employee withholdings derived in step
                   3.d.i. by two.

     3.e. 	   Also, for Life Insurance, verify Optional coverage was elected, as documented by
              an SF 2817 in the employees’ OPFs, and that withholdings are correct. The
              withholding rates for Options A, B, and C are based upon the age of the employee
              and the amount of coverage elected. [See the April 1999 revised “FEGLI
              Program Booklet” RI 76-21 available at www.opm.gov/insure/life/index.htm.]
              Report any differences or exceptions that are unsupported or unsubstantiated, or
              represent an error.

              Note: For step 3. e. only, randomly select additional individuals as necessary so
              that 10 individuals are selected for each Life Insurance option (i.e., Options A, B,
              and C).

4. 	 Randomly select a total of 10 employees, who have no Health Benefits withholdings, from
     the payroll information corresponding to the three RITS submissions selected for testing
     above. Verify from a review of the OPF that the employees did not elect Health Benefits
     coverage - this may be proven by the absence of an election form SF 2809 in the OPF, if
     the employee never elected coverage. Alternatively, for an employee who canceled
     enrollment after having been enrolled in the Health Benefits program, look for an SF 2809
     with Section E checked, indicating election of coverage cancellation. Report any exceptions
     that are unsupported or unsubstantiated, or represent an error.

     To conclude with finality that there was no election of Health Benefits, the auditor must
     first confirm with Employee Express, via the agency’s personnel office, that no election
     was made or coverage canceled by this means.

5. 	 Randomly select a total of 10 employees who have no Life Insurance withholdings from the
     payroll information corresponding to the three RITS submissions selected for testing above.
     Verify that the employees either waived or canceled Life Insurance coverage. This will be
     proven by the presence in the OPF of an SF 2817, by which an employee waives or cancels
     Basic Life Insurance coverage. Report any exceptions.
                                             - 12 -




6. 	 Calculate the headcount reflected on the Semiannual Headcount Report selected for testing
     above, as follows.

     6.a. 	   Obtain existing payroll information supporting the selected Supplemental
              Semiannual Headcount Report. If existing payroll data is not available, have a
              payroll system query performed that summarizes detailed payroll data supporting
              the Supplemental Semiannual Headcount Report, as follows:

                     •      Benefit Category [see Semiannual Headcount Report].
                     •      Dollar Amount of withholdings and contributions.
                     •      Number Enrolled (deductions made/no deductions).
                     •      Central Personnel Data File Code.
                     •      Aggregate Base Salary.

              It may be that the payroll information needed to recalculate the selected
              Headcount Report is no longer available on the payroll system. If such is the case,
              query the payroll information currently residing on the payroll system and
              compare it to the selected Headcount Report. Account for any significant
              personnel changes that may affect withholdings, contributions, and numbers of
              employees enrolled.

     6.b. 	   Recalculate the Headcount reflected on the Semiannual Headcount Report. A
              suggested method of recalculating the Headcount is as follows: (1) estimate the
              number of employees per payroll register page by counting the employees listed
              on several pages, (2) count the number of pages in the payroll register, and (3)
              multiply the number of employees per page by the number of pages, or count
              (using a computer audit routine) the number of employees on the payroll data file
              for the period.

     6.c. 	   Compare the results of payroll information from step 6.a with the calculated
              Headcount from step 6.b to the information shown on the Semiannual Headcount
              Report.

     6.d. 	   Report any differences (i.e., gross rather than net) greater than 2 percent between
              the Headcount reporting on the agency’s Semiannual Headcount Report and
              payroll information from step 6.a and the calculated Headcount from step 6.b.

7. 	 Calculate employer and employee contributions for Retirement, Health Benefits, and Life
     Insurance.

     7.a. 	   Calculate Retirement withholdings and contributions for the three pay periods
              selected, as follows:
                                         - 13 -


         i       Multiply the CSRS and FERS payroll base by the withholding and
                 employer contribution rates required by law.

         ii      Compare the calculated totals with related amounts shown on the RITS
                 submissions. Report any variances (i.e., gross rather than net) between the
                 calculated amounts and the amounts reported on the RITS submissions
                 greater than 5 percent.

7.b. 	   Calculate employee withholdings and employer contributions for Health Benefits
         for the three pay periods selected, as follows:

         i	      Multiply the number of employees enrolled in each Health Benefit plan and
                 plan option by the employee withholdings and employer contributions for
                 the plan and option.

         ii 	    Sum the totals in step 7.b.i. and compare the result with the Health Benefit
                 withholding and contribution amounts shown on the RITS submissions.
                 Report any variances (i.e., gross rather than net) between the calculated
                 amounts and the amounts reported on the RITS submissions greater than 5
                 percent.

7.c. 	   Calculate the Basic Life Insurance employee withholdings and employer
         contributions for the three pay periods selected as follows:

         i	      Have APO personnel perform a payroll system query to determine the total
                 number of employees with Basic Life Insurance Program coverage and the
                 aggregate annual basic pay for all employees with Basic Life Insurance
                 Program coverage. [See the CSRS/FERS Handbook, Section 30A1.1-2 for
                 definition of basic pay.]

         ii 	    For employee withholdings: Add the product of 2,000 times the number of
                 employees with Basic Life Insurance coverage to the aggregate annual
                 basic pay for all employees selected. This represents the estimated total
                 Basic Life Insurance coverage.

         iii 	   Compare the result in step 7.c.ii. to the withholdings for Basic Life
                 Insurance coverage reported on the RITS submission. Report any
                 difference (i.e., gross rather than net) between the estimate and the amount
                 of withholdings reported on the RITS submission greater than 5 percent.

         iv      For agency contributions: Divide the results of step 7.c.ii. by two -- this
                 approximates agency contributions, which are one-half of employee
                 withholdings. Compare this result to the amount reported on the RITS
                 submission, and report any differences (i.e., gross rather than net) between
                                        - 14 -

                the estimate and the amount reported on the RITS submission greater than
                5 percent.

7.d. 	   Calculate the Option A and Option C Life Insurance coverage withholdings for the
         three pay periods selected by using the results of payroll system queries from step
         6.a or have the APO personnel perform a payroll system query that summarizes
         the number of employees, by age group, who elected Options A and C during the
         pay periods selected.

         i	     Multiply the number of employees in each age group by the appropriate
                rate for Option A or Option C, in accordance with the rates for age groups
                provided in the FEGLI Program Booklet for pay periods beginning on or
                after 4/24/99. Report any differences (i.e., gross rather than net) greater
                than 2 percent for Option A and/or Option C.

         ii 	   Contributions for Option B cannot be tested for reasonableness by these
                methods because of the number of variables involved in electing this
                option.
